No. 20-1174
IN THE
SUPREME COURT OF THE UNITED STATES
KIM LIPPARD AND BARRY LIPPARD,
v.

Petitioners,

LARRY HOLLEMAN AND ALAN HIX,
Respondents.
CERTIFICATE OF SERVICE
I, Julian H. Wright, Jr., a member of the bar of this Court, hereby certify that
on this 21st day of June, 2021, all parties required by the Rules of this Court to be
served have been served. The Supplemental Brief for Petitioners was served by
email, with consent, on the following:
SETH JAMES KRAUS
GIBBS & ASSOCIATES LAW FIRM, LLC
6398 Thornberry Court
Mason, OH 45040
(513) 234-5545
skraus@gibbs-lawfirm.com
Counsel for Respondents
/s/ Julian H. Wright, Jr.
Julian H. Wright, Jr.
June 21, 2021

